                                                         Memorandum
           U.S. Department of
           Transportation
           Office of the Secretary
           Of Transportation
           Office of Inspector General


Subject:   INFORMATION: Audit Announcement —                          Date:    June 22, 2005
           FAA’s Air Traffic Organization Controls over
           Credit Hours
           Project No: 05A3008A000

  From:                                                             Reply to
           David A. Dobbs                                           Attn of:   JA-10
           Assistant Inspector General
            for Aviation and Special Program Audits

    To:    Ramesh K. Punwani
           Assistant Administrator
            for Financial Services/CFO

           Credit hours are hours that an employee elects to work, with supervisory
           approval, in excess of the employee’s basic work requirement under a flexible
           work schedule. Although credit hours technically do not have a monetary
           value, once earned they can be accumulated and used in lieu of annual and sick
           leave. Credit hours can also be earned by both bargaining unit employees and
           supervisors. According to Federal Aviation Administration data, during Fiscal
           Year 2004, the Agency granted nearly 1.2 million credit hours for air traffic
           employees, or the equivalent of 567 full time employees.

           The use of credit hours can be an effective management tool in reducing the
           amount of overtime required and in filling unexpected shortages in work
           schedules. However, prior OIG reviews have found numerous air traffic
           control facilities that had local agreements giving blanket authorization for
           controllers to arrive before or stay after their normal shift to earn credit hours,
           regardless of workload. We also found instances where credit hours were
           granted to settle grievances.

           In light of these prior issues and the large amount of credit hours granted last
           year, the Office of the Inspector General plans to conduct an audit of the Air
           Traffic Organization’s oversight of credit hours. The objective of our audit is
to determine if the Air Traffic Organization’s controls over credit hours are
sufficient to ensure that credit hours are justified, necessary, and in the best
interest of the Government. We plan to begin our audit the week of
June 27, 2005 and will contact your audit liaison to schedule an entrance
conference. If you have any questions or need additional information, please
contact Dan Raville, Program Director, at (202) 366-1405 or Bob Romich,
Project Manager, at (202) 366-6478.

                                         #

cc: FAA Chief of Staff
    Anthony Williams, ABU-100
    Martin Gertel, M-1




                                     2
